No. 20 – 1348
________________________________________

IN THE UNITED STATES
SUPREME COURT
_______________________________
TRUE HARMONY ET AL.,
Petitioner,
v.
STATE DEPT. OF JUSTICE OF THE STATE OF CALIFORNIA
ET AL.
Respondent.
________________________________
On Appeal from the Denial of the Writ of Mandamus to Recuse
Federal District Court Judge Hon. J. Kronstadt
U.S. Court of Appeals for Ninth Circuit Case No. 20-72115
SUPPLEMENT TO THE PETITION FOR WRIT OF
CERTIORARI
Jeffrey G Thomas, Esq.
201 Wilshire Blvd. Second Floor
Santa Monica, California 90401
Telephone: (310) 650-8326
jgthomas128@gmail.com
Attorney at Law for Petitioners

SUPPLEMENT TO PETITION FOR WRIT
OF CERTIORARI IN TRUE HARMONY V.
STATE OF CALIFORNIA DEPT. OF
JUSTICE, NO. 20-1348
FOREWORD
On April 13, 2021, Hon. J. Kronstadt, whom
this petition seeks to have recused, entered an
order dismissing the action with prejudice. See
attachment no. 1, Appendix hereto (hereinafter
“Order”). Hon. J. Kronstadt decided without the
benefit of live argument that some Plaintiffs
lacked standing to bring some causes of action in
the Second Amended Complaint, and that the
Rooker-Feldman notion defeated jurisdiction
pursuant to F.R.Civ.P. 12(b)(1) and 12(b)(6).
Ibid.

i
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

Hon. J. Kronstadt incorrectly applied the
federal law of standing and Rooker-Feldman, and
subordinated the federal law to state law
restrictions on Plaintiffs’ standing and state law
of res judicata. Plaintiffs pleaded independent
causes of action for denial of the constitutional
right of access to courts and denial of civil rights
secured by the Bankruptcy Act, federal common
law, and the Bankruptcy Clause and the
Supremacy Clause of the U.S. Constitution,
which survive the Rooker-Feldman cut-off
according to this Court’s precedent in ExxonMobil Corp. v. Saudi Basic Industries Corp.
(2005) 544 U.S. 280. The Judge applied state law
limitations on standing to bring the fraud cause
of action under the Uniform Supervision of
ii
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

Charitable Trusts Act and improperly found facts
against the Plaintiffs relating to their standing to
sue under federal law.
The Judge’s bias in favor of state law for the
Defendants and against the federal law that
completely preempts state law offends both 28
U.S.C. §455 and the Due Process of the Laws
Clauses of Amendments Five and Fourteen of the
U.S. Constitution is overt and obvious. As Judge
B. Fletcher wrote in her concurring opinion in
Bianchi v. Rylersdaam (9th Cir. 2003) 334 F. 3d
895, the federal court always has jurisdiction to
examine the bias of a judge in spite of RookerFeldman. The opportunity is hereby presented to
this Court to grant the petition to reverse the

iii
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

denial of recusal and this order of April 13, 2021
at the same time.
Herein, Dept. of Justice of State of
California and Xavier Becerra are referred to as
the “State.”

iv
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

DISCUSSION
The attached order dated April 13, 2021 in
the Appendix is riddled with legal and factual
errors. Plaintiffs discuss herein only two reasons
cited by the Judge for his dismissal with prejudice
of the Second Amended Complaint, because these
two reasons alone prove the actual bias of the
judge below requested for recusal (“the judge”)
and the lack of impartiality to a reasonable
observer.

And these reasons are (1) Rooker-

Feldman [Rooker v. Fidelity Trust (1923) 263
U.S. 413 and District of Columbia Court of
Appeals v. Feldman (1983) 460 U.S. 462], and
(2) lack of standing.

1
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

Rooker-Feldman:
(1)

An action must be dismissed without

prejudice for lack of jurisdiction, including
Rooker-Feldman. Mains v. Citibank N.A. (7th
Cir. 2017) 852 F. 3d 669. The Judge abused a
federal court’s discretion in dismissing the
Second Amended Complaint with prejudice.
(2)

The Judge ignored Plaintiffs’ argument that

their attack on the judgments which are void
because they violated the automatic stay in
bankruptcy are independent causes of action.
Exxon Mobil Corp. v. Saudi Basic Industries
Corp.; supra; Fontana Empire Center LLC v.
City of Fontana (9th Cir. 2003) 307 F. 3d 987.
They are independent causes of action because
Congress authorized the federal bankruptcy
2
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

courts to award damages, fees and equitable relief
against intentional violations of the automatic
stay of the debtor, 11 U.S.C. §362(k), and others
including the debtor after the bankruptcy
dismisses the case under the contempt authority
of the bankruptcy court in 11 U.S.C. §105. And
they are independent causes of action because in
the Ninth Federal Circuit Court of Appeals at
least, a judgment intentionally violating the
automatic stay in bankruptcy is void.

In re

Sambo's Restaurants, Inc. (9th Cir. 1985) 754 F.
2d 811; see Eskanos & Adler v. Leetien (9th Cir.
2002) 309 F. 3d 1210.
(4)

The Judge assumed that the arbitration

award transferred title to the Property prior to the
bankruptcy, and that the bankruptcy is irrelevant
3
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

to the judgment ordering True Harmony to
transfer title in 2008. See Order at p. 15 of 26.
But Plaintiffs have documentary and testimonial
evidence obtained in 2020 that the arbitration
awards were the result of frauds on the court
involved in misrepresentations by Rosario Perry
and Norman Solomon that the State Attorney
General approved the fake settlement agreement,
and that the arbitration required by the fake
settlement agreement was binding, when it
clearly was non-binding. Furthermore, Plaintiffs
feasibly alleged a first cause of action for denial of
constitutional right of access to court including
concealment of this evidence.

Christopher v.

Harbury (2002) 536 U.S. 403.

4
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

The Defendants’ several frauds involving
the

continuing

misrepresentation

of

the

arbitration to multiple courts is important
because solely the arbitrator awarded title to be
transferred

to

1130

South

Hope

Street

Investment Associates LLC (California) by clerk’s
deeds (and the Los Angeles superior court
confirmed the non-binding award). In contrast,
the Los Angeles court of appeals’ opinion in 2007,
the fake settlement agreement and the superior
court’s judgments in 2005 enforcing the fake
settlement agreement merely required a split of
ownership between True Harmony and Norman
Solomon’s Hope Park Lofts, LLC, and not a
transfer of title. See the Petition for the Writ at p.
21 – 24 at 26.
5
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

True Harmony transferred title to 1130
South Hope Street Investment Associates LLC
(“Delaware LLC”) by deed in February 2008.
The judgment in June 2008

against True

Harmony confirming the arbitrator’s award of
title to 1130 South Hope Street Investment
Associates LLC (“California LLC”) could have
been attacked in bankruptcy by the Delaware LLC
as

a

fraudulent

conveyance,

judgment is not self-executing.

because

the

However, the

defendants Rosario Perry and Norman Solomon
fraudulently obtained an order lifting the
automatic stay by misrepresenting for the third or
fourth time to the courts that the arbitration was
binding, this time to the bankruptcy court in
2010.
6
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

(5)

The judgment in June 2008 confirming the

arbitrator’s award could have been avoided as a
preferential transfer under Bankruptcy Code
§547 within one year of bankruptcy between
related entities, since 1130 South Hope Street
Investment Associates LLC (“California LLC”)
and True Harmony are obviously related entities.
Contra Order, at pp. 14 - 16 of 26. The fake
settlement agreement, and the order of the Los
Angeles superior court and the Los Angeles
appeals court defines these entities as related by
50% ownership. The Judge’s (as-a-state-court
judge) judgment dated June 3, 2009 which stated
that

1130

South

Hope

Street

Investment

Associates LLC was never cancelled, attempted to
relate itself back to the so-called fraudulent
7
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

transfer of the property from True Harmony to
the Delaware LLC in February of 2008, is also not
self-executing, and therefore it defines the
Delaware LLC and the California LLC as related
entities for the purpose of the Bankruptcy Code.
See Petition for the Writ of Certiorari at pp. 22 –
26.
(6)

This Judge plainly erred in his assumption

that True Harmony and the Delaware LLC are not
alter egoes. Order at p. 15 of 26.

The Judge’s

state court judgment confirming an arbitration
award

and

dated

June

3,

2009

(inside

bankruptcy) attempted to relate the cancellation
of the articles of the California LLC to the date of
the transfer of title between True Harmony and
the Delaware LLC.

Thus the Judge’s own

8
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

judgment in 2009 (inside bankruptcy) defined
the Plaintiffs, contrary to the conclusion of the
Order at p. 15. The Defendant’s pleadings in the
action in which the Judge entered the judgment
inside bankruptcy (BC385560) also defined them
as alter egoes.
The Judge’s assumption that the Plaintiffs
are not alter egoes is patently false, and the
automatic stay of the Delaware LLC applied to its
alter ego, True Harmony. Havelock v. Taxel (In
re Pace) (9th Cir. 1995) 67 F. 3d 187; United
States v. Dos Cabezas Corp. (9th Cir. 1993) 995
F. 2d 1486. And True Harmony has a letter from
the State Franchise Tax Board that the Delaware
LLC is formed as a holding company for holding
title to True Harmony’s property, and approving
9
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

it as a nonprofit mutual benefit corporation
therefore. The automatic stay in the bankruptcy
of the holding company organized for the purpose
of the bankruptcy clearly applied to its subsidiary,
True Harmony. Ibid.
The Judge always has worn, and continues
to wear too many hats as a state court judge
usurping the power of the State’s Secretary of
State to decide that his judgment in 2009 relates
back to a time of fraudulent cancellation of
articles of a limited liability company for the
purpose of imputing the time of transfer of title to
the Property as of the date in June 2008 of the
judgment of title confirming the arbitration
award, as though the judgment is a contract
under contract law, but the judgment like the
10
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

contract is fraudulent. A federal court judge must
reviewing the relationship between the entities
involved in the transfer by deed and by judgment
according to federal law where, as here, it
controls state law as alleged throughout the
Second Amended Complaint.
The Judge’s order deprives Plaintiffs of the
services of an impartial decisionmaker to a
reasonable observer, and Due Process of the Laws
because of his personal interest in defending the
intent of the relation back of his state court
judgment inside bankruptcy from attack under
bankruptcy law.
(7)

The causes of action at civil rights attacking

the state court judgments that violated the
automatic stay in bankruptcy (ie. the “inside
11
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

bankruptcy” judgment dated June 3, 2009, and
judgments

within

Bankruptcy

Code

§108

including the judgment dated March 15, 2010
fewer than thirty days after the bankruptcy court
ordered the stay lifted, and the judgment dated
April 22, 2010, the result of the so-called trial on
March 15, 2010) are not de facto appeals under
Rooker-Feldman because these judgments affect
“core” issues and are preempted by the
Bankruptcy

Clause

of

the

United

States

Constitution. The core issue is the turnover of
property of the estate here of 1130 South Hope
Street Investment Associates LLC (Delaware)
which filed for bankruptcy on May 7, 2009,
because the clerks deeds to 1130 South Hope
Street Investment Associates LLC (California)
12
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

were recorded within 90 days on February 18,
2009.

The complete preemption of the 1978

Bankruptcy Act is established by a decision of
this court arising under the 1898 Bankruptcy Act,
Kalb v. Feuerstein (1940) 308 U.S. 433 which
Congress impliedly re-enacted.
The pleadings’ allegations of complete
preemption of state law concerning the violations
of the automatic stay are like a Dormant
Bankruptcy Clause analog of its Dormant
Commerce Clause counterpart.
Newfounds/Owatonna v.

See Camp

Town of Harrison

(1997) 520 U.S. 564; compare Central Virginia
Community College v. Katz (2006) 546 U.S. 356.
(8)

Because the Judge treated the Rooker-

Feldman issue as an issue pertaining solely to
13
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

identity of parties and issues, see Order at pp. 15
– 17 of 26, the Judge disregarded the warning in
Exxon-Mobil against application of RookerFeldman as a res judicata rule. The Order de
facto applies state law instead of the federal law
that is required for all issues pertaining to alleged
violations of the automatic stay including res
judicata. Kalb v. Feuerstein, supra; see eg., In re
Benalcazar (Bank. N.D. Ill. 2002) 283 B. R. 514.
The disguised application of res judicata
under the cloak of the Rooker-Feldman rule
resulted in another systematic repetition of
denial of Due Process of the Laws, in a bootstrap
repetition of the many violations of adequate
notice and opportunity to be heard under Due
Process of the Laws already committed by the
14
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

state courts in the prior judgments that the Judge
res judicated sub silentio.
The

state

court

concluded

in

True

Harmony v. Perry (no. BC546574) in sustaining
the demurrer to the pleading therein (also a
Second Amended Complaint) that Mr. Perry’s
failure to advise True Harmony of his conflict of
interest in doing a business deal with a client, that
Mr. Perry’s testimony against True Harmony in
the hearings on the fake settlement agreement
and his involuntary waiver of privilege, that Mr.
Perry’s fraud on the courts of representing the
approval of settlement agreement by the State’s
attorney general, and of causing the State’s
attorney general to fail to represent True
Harmony, was not fraud on the court. See Order,
15
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

p. 13 of 26. This is not binding on the federal
court in an action brought in the public interest.
Under federal law fraud on the court does not
depend on the designation of extrinsic fraud or
not.

See Order, at pp. 18 – 21 of 26; United

States v. Throckmorton (1878) 98 U.S. 61.
(9)

The Order failed to discuss the pleading’s

allegation that the third cause of action
anticipated Defendants’ defenses under federal
bankruptcy law and federal taxation law which
creates jurisdiction arising under federal law
according to Grable & Sons Metal Products Inc.
v. Darue Engineering & Mfg. (2005) 545 U.S.
308. There is jurisdiction arising under a federal
question of the fraud under the Uniform
Supervision of Charitable Trusts Act, because
16
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

fraud was not before the court in True Harmony
v. Perry BC546574). And the “sham” exception to
the

Noerr-Pennington

doctrine

[Eastern

Railroad Presidents Conference v. Noerr Motor
Freight, Inc. (1961) 365 U.S. 127 and United
Mine Workers v. Pennington (1965) 381 U.S.
657] and the Defendants’ many violations of
ethical rules of attorney’s responsibilities to client
defeats the litigation privilege.
Standing:
(10) The Judge deemed the allegations of the
Second Amended Complaint attacking the
violations

of

bankruptcy

law

inadequate.

Therefore he ignored these allegations in
dismissing injury in fact for standing of some
Plaintiffs.

The Defendants caused denial of

17
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

constitutional right of access to courts because
they suppressed discovery of their previous
frauds on the court and frauds on State, in the
context of later actions in which they asserted res
judicata as a defense and the interpleader action
in which the court lacked all jurisdiction. Order,
at p. 11 of 26; see Christopher v. Harbury, supra.
The

Order

concluded

that

Mr.

Thomas

committed misconduct that defeated his standing
to attack the violations of Plaintiff’s civil rights,
because it conveniently ignored the denial of
constitutional right of access to courts.
(11) The Judge misunderstood the Plaintiffs’
standing argument regarding taxpayer liability.
Order at pp. 11 - 12 of 26. The Judge accepted
State’s argument that restitution of $1.6 million
18
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

of sales proceeds is infinitesimally small for the
court to remedy (incredibly, State made this
argument in motion documents). Is this why the
Judge did not evaluate the evidence offered by
Plaintiff that the value of the property is $5.5
million? Order at p. 7 of 26. Because the larger
amount is also a trifle? In defense of the motions,
Plaintiffs cited decisions involving taxpayer
standing against municipalities, because the
taxpayer (fourth) cause of action concerns the
direct relationship of the mismanagement of the
Charitable Properties section of the State
(Department of Justice) of this action concerning
this property to all known charitable properties
supervised by this one section of the State (Dept.

19
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

of Justice).1 State is “on the hook” to explain its
negligence akin to legal malpractice here.
(12) The Judge adopted and endorsed State’s
argument that federal common law does not
apply to the registered public charity. Order, p.
12 of 26. But the State in its motion herein denied
jurisdiction under Amendment Eleven of the U.
S. Constitution, despite that it could have
consented to jurisdiction of this action. The State
has discriminated against the Plaintiffs by failing
to perform the mandatory duty as parens patriae
to represent Plaintiffs in court without cost to
True Harmony was deprived of eighteen total
properties because of the fraud of its officers that
originally caused the loss of title to the 1130
Hope Street property. Rosario Perry’s crosscomplaint for True Harmony in the state
superior court in 2004 sought to recover title to
seven of these properties.
1

20
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

enforce the cease and desist order.

State

apparently perceives that Internal Revenue Code
Section

501(c)(3)

charities

are

potent

competition with local nonprofit corporations,
and the scope federal charities, if not restrained,
could surpass the activities of “local” nonprofit
entities.
Plaintiffs pleaded that there is a basis in the
American common law tradition for the claim of
fraud on a charitable trust or corporation under
parens patriae that is acceptable as federal
common law, which avoids the discrimination
injury that the politically motivated State has
caused to Plaintiffs. The waiver of the State’s
sovereign immunity under the Bankruptcy
Clause of the U.S. Constitution is another reason
21
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

to apply federal common law. Cf. Central Va.
Community

College,

supra.

The

Bar

Association’s boycott of Plaintiffs’ attorney at law
is a reason to apply a federal rule including the
federal law of ethical responsibilities of attorneys
at law. U.S. v. Throckmorton, supra.
The Judge concludes his order with the
statement that judges have discretion to dismiss
with prejudice because they have discretion to
protect “the integrity of ‘their orders.’” Order, at
p. 26 of 26. But in reality the only orders and
judgments that the Judge’s order protects are the
state court’s judgments under state law in prior
actions, which must be subordinated to federal
law to protect the integrity of the federal court’s
jurisdiction and federal law.
22
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

CONCLUSION
The Judge’s order is contaminated by the
discriminatory state’s bias against the federal
government and the federal courts, and the
statute and the Due Process of the Laws of
Amendments Five and Fourteen requires recusal.
May 4, 2021

/s/ Jeffrey G. Thomas
Attorney at law for
Petitioners

23
Supplement to Petition for Writ of Certiorari – True Harmony
et al. v. State of California et al.

APPENDIX
COURT’S ORDER IN TRUE HARMONY v. STATE
DEPT. OF JUSTICE, no. 20-cv-00170, U.S. DIST.
CT. CENT. DIST. CAL.

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 1 of 26 Page ID #:5223
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Title

True Harmony et al v. The Department of Justice of the State of California et al

Present: The Honorable

Date

April 13, 2021

JOHN A. KRONSTADT, UNITED STATES DISTRICT JUDGE

T. Jackson

Not Reported

Deputy Clerk

Court Reporter / Recorder

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

(IN CHAMBERS) ORDER RE MOTION TO DISMISS SECOND AMENDED
COMPLAINT (DKT. 82);
MOTION TO DISMISS PURSUANT TO FED. R. CIV. PROC. 12(B)(1) AND
12(B)(6) (DKT. 85);
MOTION TO DISMISS THE FOURTH AND FIFTH CAUSES OF ACTION IN
PLAINTIFFS’ SECOND AMENDED COMPLAINT (DKT. 88);
MOTION TO DISMISS FOR LACK OF JURISDICTION AND FAILURE TO
STATE A CLAIM (DKT. 90);
CORRECTED MOTION TO DISMISS (DKT. 110)
EX PARTE APPLICATION TO REQUIRE SUSPENDED ATTORNEY
JEFFREY G. THOMAS ESQ. TO PROVIDE ADDRESSES AND PHONE
NUMBERS FOR EACH OF HIS FORMER CLIENTS (DKT. 146)
JS-6: CASE TERMINATED

On January 27, 2020, True Harmony, Ray Haiem and Jeffrey G. Thomas brought this action against
the following parties: the “Department of Justice of the State of California” 1; Xavier Becerra, both
personally and in his official capacity 2; Rosario Perry; Norman Solomon; Hugh John Gibson; BIMHF
LLC; Hope Park Lofts 2001-02910056 LLC; 1130 Hope Street Investment Associates, LLC; and 50
unnamed Defendants. Dkt. 1. On May 31, 2020, True Harmony, Haiem, and Thomas filed a Second
Amended Complaint, which added 1130 South Hope Street Investment Associates, LLC as a Plaintiff.
Plaintiffs treat this agency as distinct from the California Attorney General, notwithstanding the Attorney
General’s supervision and control of the Department of Justice. See Cal. Govt. Code § 15000 (“There is in the
State Government a Department of Justice. The department is under the direction and control of the Attorney
General.”).
2 Becerra subsequently resigned as Attorney General to become the United States Secretary of Health and
Human Services. Governor Newsom subsequently appointed Rob Bonta as the Attorney General.
https://www.gov.ca.gov/2021/03/24/governor-newsom-to-submit-assemblymember-rob-bontas-nomination-forattorney-general-to-the-state-legislature/.
1

Page 1 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 2 of 26 Page ID #:5224
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

Dkt. 69 (the “SAC”). The SAC was accepted as the operative filing. Dkt. 75.
On June 19, 2020, Defendant BIMHF LLC filed a Motion to Dismiss Second Amended Complaint (the
“BIMHF Motion” Dkt. 82)). On the same date, Norman Solomon, Hope Park Lofts 2001-02910056 LLC
and 1130 Hope Street Investment Associates LLC filed a Motion to Dismiss Pursuant to Fed. R. Civ.
Proc. 12(b)(1) and (6) (the “Solomon Motion” (Dkt. 85)). On June 22, 2020, California Attorney General
Xavier Becerra’s Motion to Dismiss the Fourth and Fifth Causes of Action in Plaintiffs’ Second
Amended Complaint was filed (the “California Motion” (Dkt. 88)). On June 22, 2020, Defendant Rosario
Perry filed a motion to dismiss the Second Amended Complaint. Dkt. 90. Perry filed a corrected motion
to dismiss on August 3, 2020 (the “Perry Motion” (Dkt. 110)).
Plaintiffs filed an opposition to the California Motion on July 29, 2020 (the “California Opposition” (Dkt.
106)). On August 17, 2020, Plaintiffs filed oppositions to the BIMHF Motion and the Perry Motion
(“BIMHF Opposition” (Dkt. 112)) (“Perry Opposition” (Dkt. 113)). On the same day, all Plaintiffs except
Thomas filed an opposition to the Solomon Motion, and Thomas filed a separate opposition to that
Motion (the “Solomon Oppositions” (Dkt. 114; Dkt. 115)).
The moving parties filed replies in support of the Motions (“Solomon Replies” (Dkts. 123-24)), (“BIMHF
Reply” (Dkt. 127)); (“Perry Reply” (Dkt. 132)); (“California Reply” (Dkt. 136)).
Pursuant to L.R. 7-15, it was determined that the issues presented by the Motions could be decided
without a hearing, and the Motions were taken under submission. Dkt. 137. For the reasons stated in
this Order, the Motions are GRANTED, and the SAC is DISMISSED WITH PREJUDICE.
I.

Factual Background
A.

The Parties

True Harmony is alleged to be a nonprofit public benefit corporation organized under the laws of the
state of California. SAC ¶ 1. Ray Haiem is alleged to be a citizen of California, who pays federal and
state income taxes, and the largest donor to True Harmony. Id. ¶ 2. 1130 South Hope Street
Investment Associates LLC (the “Delaware LLC”) is alleged to be a Delaware limited liability company
organized by the officers of True Harmony in 2008. Id. ¶ 3.
Jeffrey Thomas is alleged to be a citizen of California, who is an attorney, and who pays federal and
state income taxes. Id. ¶ 4.
The “Department of Justice of the State of California” is alleged to be the law enforcement agency of
the state. Id. ¶ 5. Xavier Becerra is alleged to have been the Attorney General of the State of California.
Id. ¶ 6. Because the rationale for suing the Attorney General and the Department of Justice as separate
entities is not clear, these parties are referred to as the “Government Defendants” throughout this
Order.
Rosario Perry is alleged to be a citizen of California who is an attorney. Id. ¶ 7.
Hope Park Lofts 2001-02910056, LLC (“Hope Park”) is alleged to be a California limited liability
Page 2 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 3 of 26 Page ID #:5225
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

company. Id. ¶ 8. Hope Street Investment Associates LLC (the “California LLC”) is also alleged to be a
California limited liability company. Id. ¶ 9.
Norman Solomon is alleged to be a citizen of California who is an attorney and a real estate broker. Id.
¶ 12.
BIMHF, LLC is alleged to be a California limited liability company. Id. ¶ 13.
Hugh John Gibson is alleged to be a citizen of California who is an attorney. Id. ¶ 14.
B.

Allegations in the SAC

The SAC alleges fraud and legal error that occurred during state court proceedings concerning the real
property located at 1130 South Hope Street, Los Angeles, California (the “Property”).
1.

The Quiet Title Action (Case No. BC247718, Appeal No. B183928)

It is alleged that in 2001, Solomon caused an entity that he controls to bring a quiet title action against
True Harmony. Dkt. 69 at 3. Perry allegedly represented True Harmony in that action. Id. It is alleged
that True Harmony prevailed at trial, but that Perry produced “out of thin air” a “fake” settlement
agreement. Id. The settlement agreement, a copy of which is attached to the SAC, attributed ownership
of the property to the California LLC, as a joint venture between Hope Park and True Harmony. Id. It is
alleged that this settlement only provided for nonbinding arbitration, because the typed word “binding”
had been crossed out and initialed by Perry and Rick Edwards. Id. 3 It is also alleged that Perry had
“conflicts of interests as True Harmony’s attorney at law and as a witness testifying against True
Harmony involuntarily waiving its attorney-client privilege.” Id. ¶ 27. It is then alleged that there was a
“conspiracy for a continuous business transaction with Defendant Perry as self-appointed manager of
[the California LLC], without advising True Harmony of its rights to independent legal advice and written
consent to the conflict of interest in a continuing business transaction with their former client.” Id. ¶ 28.
It is alleged that True Harmony filed an appeal in which it challenged the validity of the settlement
agreement. Id. at 7. It is alleged that True Harmony did not brief “the issue of Cal. Corp. Code § 5913,
or the CAL AG’s approval,” or “the lack of control of TRUE HARMONY OF A 50% - 50% split in
ownership or control of the ‘new’ entity or joint venture, or the lack of approval by the California
[A]ttorney [G]eneral.” Id. It is alleged that Justice Mosk wrote the opinion on the appeal in which it was
determined that these issues had been waived, and that this opinion was erroneously labeled as that of
a majority of the panel. Id. at 7-8. 4 It is alleged that this decision by the California Court of Appel
violated the Fourteenth Amendment, failed to defer to federal law and federal common law, and
exceeded the jurisdiction of the court. Id. ¶¶ 57-58.
It is then alleged that an arbitration was held before retired Judge William Schoettler (“Schoettler”), who
is alleged to be a “chum” of Defendants. Id. at 8. Schoettler allegedly made an arbitration award that
Edwards is not identified in the SAC. However, documents submitted by the parties reflect that Rick Edwards
was counsel for True Harmony in the appeal of the Quiet Title Action.
4 The opinion was not published, but is available on Westlaw. Hope Park Lofts, LLC v. True Harmony, Inc., No.
B183928, 2007 WL 841770 (Cal. Ct. App. Mar. 21, 2007).
3

Page 3 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 4 of 26 Page ID #:5226
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

ordered True Harmony to transfer title to the California LLC. Id. It is further alleged that this award was
confirmed in the Quiet Title Action, but that this was a “fake ‘non-binding’ post-appeal judgment.” Id. at
8-9 (emphasis in original).
2.

The Arbitration Action (Case No. BC385560)

It is alleged that True Harmony cancelled the articles of Hope Park and the California LLC, formed the
Delaware LLC, and transferred title to the Delaware LLC. Id. at 9. It is alleged that Defendants then filed
a petition with the Superior Court to compel arbitration (Case No. BC385560 (the “Arbitration Action”)),
using a false copy of the Settlement Agreement which provided for “binding” arbitration. Id. at 10.
Although True Harmony allegedly raised this objection to the Superior Court, it nevertheless issued an
order compelling arbitration. Id.
It is then alleged that an arbitration was held in January 2009, notwithstanding True Harmony’s
objection that it did not have sufficient time to prepare. Id. It is alleged that the arbitration proceeded
without True Harmony appearing, and that Schoettler awarded title of the Property to the California
LLC, and awarded $1 million in damages and attorney’s fees against True Harmony (the “February
2009 Award”). Id. at 10.
It is then alleged that True Harmony caused the Delaware LLC to file for bankruptcy on May 6, 2009. Id
(the “Bankruptcy Proceedings”). On June 3, 2009, the Superior Court allegedly entered a judgment
confirming the February 2009 Award against True Harmony. Id. (the “June 3, 2009 Judgment”). It is
alleged that this action was in violation of the automatic stay that applied due to the bankruptcy. Id. at
10-11.
It is next alleged that in December 2009, the Superior Court considered a motion for summary
judgment on a cause of action for declaratory judgment against True Harmony in the Arbitration Action.
Id. at 11. It is alleged that this cause of action affected the Delaware LLC’s title to the Property. Id. It is
alleged that the Superior Court granted the motion, but stayed its effectiveness, and that this was
another violation of the automatic stay. Id (the “Summary Judgment Order”).
It is then alleged that the Bankruptcy Court granted the California LLC prospective relief from the
automatic stay. Id. at 11. It is alleged that the Superior Court then proceeded to trial on March 15, 2010,
despite True Harmony’s request for a continuance. Id. It is alleged that True Harmony and the
Delaware LLC were not represented at trial, and that the denial of a reasonable continuance constituted
a third violation of the automatic stay. Id.
It is then alleged that, on March 15, 2010, the Summary Judgment Order was entered against the
Delaware LLC. Id. at 12. It is alleged that this was also a violation of the automatic stay. Id. Finally, it is
alleged that the entry of judgment after trial in favor of Defendants violated the automatic stay. Id.
3.

The Sale of the Property

It is alleged that in July 2011, Defendants relied on the “moot” judgments in the Arbitration Action to sell
the Property. Id. It is alleged that this was despite an April 2011 letter from the Government
Defendants, which is attached to the SAC. Id.; id. at 76 (the “Cease and Desist Letter”).
Page 4 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 5 of 26 Page ID #:5227
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

The Cease and Desist Letter is addressed to several Plaintiffs and Defendants, including True
Harmony, Haiem, the California LLC, Perry, Solomon, and Hope Park. Id. It states that:
This Office has become aware that the California nonprofit public benefit corporations True
Harmony or Ray of Life Charitable Foundation (“Ray of Life”), or both, have a substantial
financial interest in 1130 South Hope Street. Further, this Office has learned that the charitable
interest in 1130 South Hope Street would constitute all or substantially all of the assets of True
Harmony and Ray of Life.
Pursuant to Corporations Code section 5913, the Attorney General must receive written notice
20 days before a charitable corporation “sells, leases, conveys, exchanges, transfers, or
otherwise disposes of all or substantially all of its assets… unless the Attorney General has
given a written waiver of this section as to the proposed transaction.” The Attorney General has
not received any such written notice and has given no waiver of notice and intends to review
this transaction.
Accordingly, with regards to 1130 South Hope Street, you are hereby notified to
immediately cease all activity with regard to the sale, lease, conveyance, exchange,
transfer, and any other activity that would affect title to the property until the
requirements of Corporation Code section 5913 have been met.
Id. at 77-78 (bold in original).
It is alleged that the Cease and Desist Letter has never been withdrawn or rescinded. Id. at 13.
4.

The Interpleader Action (Case No. BC466413, Appeal No. BC254143)

It is alleged that, following the sale of the Property, Defendants brought an interpleader action to
facilitate the distribution of funds from the sale. Id. at 13 (the “Interpleader Action”). It is alleged that the
Superior Court lacked both in rem jurisdiction over the funds and in personam jurisdiction over the
Defendants. Id. It is further alleged that the violation of the Cease and Desist Order was concealed from
the Superior Court and Plaintiffs. Id.
It is alleged that Thomas represented Haiem in this action, that the Superior Court dismissed Haiem’s
cross-complaint, and that Thomas filed a motion for relief from the dismissal. Id. at 13-14. It is then
alleged that, after the motion for relief was denied, Thomas appealed, and that Defendants sought
sanctions against him, on the ground that the appeal was frivolous. Id. It is alleged that the Court of
Appeal granted the sanctions motion and imposed sanctions of $58,650 against Thomas. Id. at 14. 5
5.

The Recovery Action and Appeal (Case No. BC546574, Appeal No. B287017)

It is alleged that True Harmony, while represented by Thomas, brought another action in Los Angeles
The opinion was not published by the California courts, but is available on Westlaw. 1130 Hope Street
Investment Associates, LLC v. Haiem, No. B254143, 2015 WL 1897822 (Cal. Ct. App. Apr. 27, 2015).

5

Page 5 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 6 of 26 Page ID #:5228
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

Superior Court to recover title to the Property. Id. at 14 (the “Recovery Action”). Defendants allegedly
misused motions under the anti-SLAPP statute and overbroad protective orders to limit discovery. Id. at
15. Defendants allegedly filed a demurrer to the Second Amended Complaint on the grounds of
collateral estoppel and res judicata. Id. at 15. Although True Harmony allegedly argued that the prior
judgments were not res judicata because they violated the automatic stay, the Superior Court granted
the demurrer and dismissed the action. Id. at 15-16. It is alleged that the minute order and judgment
were entered ex parte on April 7, 2017, but were not available in public records. Id. at 16. True
Harmony allegedly moved for reconsideration on April 17, 2017, but the Defendants allegedly caused
the judgment to be entered ex parte on May 1, 2017 and May 19, 2017. Id.
On October 17, 2017, the Superior Court allegedly denied the motion for reconsideration for lack of
jurisdiction. Id. It is alleged that Defendants moved for sanctions claiming that the motion was frivolous.
Sanctions were assessed against Plaintiffs on November 30, 2017. Id.
It is then alleged that True Harmony filed an appeal from the decision, including the award of sanctions.
Id. The Court of Appeal allegedly dismissed the appeal as untimely, and affirmed the award of
sanctions. Id. at 16-17. It is alleged that Solomon then moved for sanctions for bringing a frivolous
appeal, which the Court of Appeal granted. Id. 6
It is alleged that the Executive Director of the National Association of Attorneys General wrote a letter to
Becerra regarding the Recovery Action and the appeal. Id. at 17.
II.

Evidence Submitted by the Parties

On a motion to dismiss, a court may consider the complaint as well as documents attached to, or
incorporated by reference into the complaint, if the latter are matters that are subject to judicial notice.
United States v. Ritchie, 342 F.3d 903, 908 (9th Cir. 2003). “Even if a document is not attached to a
complaint, it may be incorporated by reference into a complaint if the plaintiff refers extensively to the
document or the document forms the basis of the plaintiff's claim.” Id. “The defendant may offer such a
document, and the district court may treat such a document as part of the complaint, and thus may
assume that its contents are true for purposes of a motion to dismiss under Rule 12(b)(6).” Id. “A
document is not ‘outside’ the complaint if the complaint specifically refers to the document and if its
authenticity is not questioned.” Branch v. Tunnell, 14 F.3d 449, 453 (9th Cir. 1994) (quoting Townsend
v. Colum. Operations, 667 F.2d 844, 848-49 (9th Cir. 1982)).
BIMHF, Solomon, Hope Park and the Delaware submitted Requests for Judicial Notice. See Dkt. 83
(the “BIMHF RFN”); Dkt 86 (the “First Solomon RFN”); Dkt. 125 (the “Second Solomon RFN”).
Plaintiff did not submit a formal request for judicial notice, but submitted a binder of exhibits, together
with a Declaration of Jeffrey G. Thomas. Dkt. 112 at 31. 7

The opinion was not published by the California courts, but is available on Westlaw. Thomas v. Solomon, No.
B287017, 2018 WL 6566003 (Cal. Ct. App. Dec. 13, 2008).
7 Plaintiffs submitted the same declaration and exhibits in connection with each of the four Oppositions. For
efficiency, all citations to the declarations and exhibits are to those filed with the BIMHF Opposition, i.e., Dkt. 112.
6

Page 6 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 7 of 26 Page ID #:5229
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Title

True Harmony et al v. The Department of Justice of the State of California et al
A.

Date

April 13, 2021

The BIMHF and Solomon RFNs

BIMHF seeks judicial notice of the grant deed by which BIMHF purchased the Property, copies of filings
made in the various court proceedings at issue, and copies of judgments entered by the courts in those
matters. Dkt. 83. Solomon seeks judicial notice of additional court documents. Dkts. 86, 125.
“[P]leadings filed and orders issued in related litigation are proper subjects of judicial notice under Rule
201.” McVey v. McVey, 26 F. Supp. 3d 980, 984 (C.D. Cal. 2014). Therefore, the BIMHF RFN, the first
Solomon RFN and the Second Solomon RFN are GRANTED as to the court documents, i.e., BIMHF’s
Exhibits B, C, D, E, F, G and H, and Solomon’s Exhibits 1-10. The BIMHF RFN is MOOT as to the
grant deed, because this document is not dispositive of the issues presented by the Motions.
BIMHF, Solomon, Hope Park and the Delaware LLC also seek judicial notice of the pleadings and
judgments in Jeffrey G. Thomas v. Laurie Zelon, Case No. 2:16-cv-06544-JAK-AJW (“Thomas v.
Zelon”). Thomas was the Plaintiff in this action and brought claims against several of the Defendants in
this matter, including Gibson, Hope Park, Perry and Solomon. To the extent the BIMHF RFN and the
Second Solomon RFN seek judicial notice of those documents, they are MOOT. The pleadings are not
dispositive of the issues presented by the Motion, and the publicly available decisions in these matters
will be considered if it is necessary and appropriate to do so.
B.

Evidence Submitted by Plaintiffs

Plaintiff submitted 22 exhibits, which are described in the Declaration of Jeffrey G. Thomas. Because
the Declaration does not comply with 28 U.S.C. § 1746, and Thomas did not submit a corrected
declaration after Solomon, Hope Park and the California LLC objected on that ground, Dkt. 122, the
Declaration is construed as a request for judicial notice.
The first three exhibits are documents about the valuation of the Property and its sale to BIMHF. These
materials are not subject of judicial notice because their source is not clear. Accordingly, they are not
“sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b). Nor are they
incorporated by reference into the SAC.
The remaining exhibits are documents entered in the court proceedings. Except for Exhibit 9, judicial
notice is taken of these documents. However, judicial notice is not taken of the underlying facts
presented in them. Rather, judicial notice is taken of the fact that an order was entered or that a court
took a certain action. To the extent that Plaintiffs seek judicial notice of official court transcripts or briefs,
this request is granted to determine whether certain issues were litigated in the prior proceedings. See
Reyn's Pasta Bella, LLC v. Visa USA, Inc., 442 F.3d 741, 746 n.6 (9th Cir. 2006) (“To determine what
issues were actually litigated in the Wal–Mart courts, we take judicial notice of Plaintiffs' briefs in those
courts and the transcript of the Wal–Mart fairness hearing.”); Holder v. Holder, 305 F.3d 854, 866 (9th
Cir. 2002) (“We take judicial notice of the California Court of Appeal opinion and the briefs filed in that
proceeding and in the trial court and we determine that the waiver issue was not actually litigated and
necessarily decided here[.]”).
Exhibit 9 is a brief identified as one filed in the Quiet Title Action, but Thomas states that certain
documents attached to this brief were not attached when it was filed there. Dkt. 114 at 36-37. Given this
Page 7 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 8 of 26 Page ID #:5230
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

apparent discrepancy, the request for judicial notice is denied.
For the foregoing reasons, Plaintiff’s Request for Judicial Notice is GRANTED-IN-PART and DENIEDIN-PART.
C.

Sua Sponte Judicial Notice

A court may take judicial notice on its own motion. Fed. R. Evid. 201(c)(1). Because several parties
have requested judicial notice of documents about the Bankruptcy Proceedings, judicial notice is taken
of the docket in the Bankruptcy Action. See In re 1130 South Hope Street Investment Associates, LLC,
2:09-bk-20914-RN (Bankr. C.D. Cal.). Citations to the Bankruptcy Court docket appear in the form “B.R.
Dkt. [#].”
III.

Positions of the Parties
A.

The Motions

BIMHF, Solomon, Hope Park, the Delaware LLC and Perry argue that the claims in the SAC fail
because they seeks review of state court judgments, and that the district court lacks jurisdiction under
the Rooker-Feldman doctrine. In the alternative, they argue that these causes of action are barred by
res judicata, because they impermissibly seek to relitigate matters decided definitively in prior
proceedings. Finally, they argue that no viable civil rights claims are pleaded, because all Defendants
are private parties.
Solomon, Hope Park, the Delaware LLC and Perry argue that the Delaware LLC, Haiem and Thomas
lack standing to advance causes of actions based on injuries to True Harmony. They also argue that
the Noerr-Pennington doctrine and California’s litigation privilege bar claims based on the prior
litigation. BIMHF separately argues that the Third Cause of Action does not state a claim for fraud or
fraudulent conveyance.
The Government Defendants argue that the Attorney General is immune from any liability under the
Eleventh Amendment. They also argue that the Attorney General cannot be sued in his personal
capacity because the SAC seeks injunctive relief. They next argue that the Court lacks subject matter
jurisdiction over the Fourth and Fifth Causes of Action for two reasons: (i) Plaintiffs lack standing to
advance these claims; and (ii) the Rooker-Feldman doctrine bars these claims.
B.

The Oppositions

Plaintiffs oppose each Motion. As to Rooker-Feldman, Plaintiffs generally argue that the claims are not
barred for the following reasons: (i) they challenge orders entered in violation of the Bankruptcy Court’s
automatic stay; (ii) they challenge illegal policies of the state courts; (iii) they allege a broad conspiracy;
and (iv) some of them are brought against persons who were not parties in the state proceedings or are
premised on conduct that was not at issue in those proceedings. Similarly, they argue that because
proceedings in violation of the automatic stay are void, the state court judgments have no res judicata
effect. In the alternative, they argue that res judicata should not be applied if the Government
Defendants intervene to support Plaintiffs.
Page 8 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 9 of 26 Page ID #:5231
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

Relying on Lugar v. Edmondson Oil Co., 457 U.S. 922 (1982), Plaintiffs argue that the SAC states
proper civil rights claims. They also argue that BIMHF incorrectly assumes that the Third Cause of
Action is brought pursuant to the Uniform Voidable Transfers Act. Plaintiffs argue that it is a common
law fraudulent conveyance claim.
Finally, Plaintiffs argue that sovereign immunity could be waived, or that the violations of the automatic
stay in bankruptcy mean that sovereign immunity does not apply. They also argue that taxpayer
standing has been established.
IV.

Analysis
A.

Motion to Dismiss under Fed. R. Civ. P. 12(b)(1)

A challenge to subject matter jurisdiction under Fed. R. Civ. P. 12(b)(1) may be brought as a facial
challenge to the pleadings or based on proffered evidence. See White v. Lee, 227 F.3d 1214, 1242 (9th
Cir. 2000) (“Rule 12(b)(1) jurisdictional attacks can be either facial or factual.”). In the former, the
moving party asserts that the allegations of a complaint are insufficient to establish federal jurisdiction.
Safe Air for Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). Courts must accept the
allegations of the complaint as true in considering such a challenge, i.e., facial attacks are reviewed
under the same standard as a motion to dismiss under Fed. R. Civ. P. 12(b)(6). See Leite v. Crane Co.,
749 F.3d 1117, 1121 (9th Cir. 2014). “By contrast, in a factual attack, the challenger disputes the truth
of the allegations that, by themselves, would otherwise invoke federal jurisdiction.” Safe Air, 373 F.3d at
1039. If a factual challenge is made, the district court may “review evidence beyond the complaint
without converting the motion to dismiss into a motion for summary judgment.” Id.
B.

Application
1.

Standing
a)

Legal Standards

Because federal courts are ones of limited jurisdiction, “[a] federal court is presumed to lack jurisdiction
in a particular case unless the contrary affirmatively appears.” Stock W., Inc. v. Confederated Tribes,
873 F.2d 1221, 1225 (9th Cir. 1989) (citing California ex rel. Younger v. Andrus, 608 F.2d 1247, 1249
(9th Cir. 1979)). “Article III of the Constitution confines the federal courts to adjudication of actual
‘Cases’ and ‘Controversies.’” Lujan v. Defenders of Wildlife, 504 U.S. 555, 590 (1992). “[T]he core
component of standing is an essential and unchanging part of the case-or-controversy requirement of
Article III.” Id. at 560 (citation omitted). If a plaintiff lacks standing under Article III, an action must be
dismissed for lack of subject matter jurisdiction. See Steel Co. v. Citizens for a Better Env't, 523 U.S.
83, 109-10 (1998); accord Maya v. Centex Corp., 658 F.3d 1060, 1067 (9th Cir. 2011).
“[T]o satisfy Article III's standing requirements, a plaintiff must show (1) it has suffered an ‘injury in fact’
that is (a) concrete and particularized and (b) actual or imminent, not conjectural or hypothetical; (2) the
injury is fairly traceable to the challenged action of the defendant; and (3) it is likely, as opposed to
Page 9 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 10 of 26 Page ID
#:5232
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

merely speculative, that the injury will be redressed by a favorable decision.” Friends of the Earth, Inc.
v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180-81 (2000) (citing Lujan, 504 U.S. at 560-61).
When a plaintiff seeks injunctive relief, establishing standing under Article III also requires a showing of
“real or immediate threat that the plaintiff will be wronged again -- a ‘likelihood of substantial and
immediate irreparable injury.’” City of L.A. v. Lyons, 461 U.S. 95, 111 (1983) (quoting O'Shea v.
Littleton, 414 U.S. 488, 502 (1974)).
Standing is not “dispensed in gross.” Oregon Prescription Drug Monitoring Program v. U.S. Drug
Enforcement Admin., 860 F.3d 1228, 1233 (9th Cir. 2017) (quoting Davis v. Fed. Election Comm'n, 554
U.S. 724, 734 (2008)). Article III requires “a plaintiff to demonstrate standing for each claim he seeks to
press and for each form of relief that is sought.” Id.
b)

Analysis
(1)
Whether Parties Other than True Harmony Have Standing to
Advance the First Three Causes of Action

The SAC sufficiently alleges that True Harmony and the Delaware LLC owned or had an interest in the
Property, and that Defendants’ actions deprived them of the right to hold that interest. This type of injury
is redressable by a favorable court decision, i.e., by damages or reconveyance of the Property.
Defendants’ argument that True Harmony was not unlawfully deprived of the Property, Dkt. 85 at 24,
goes to the merits of the cause of action, not standing.
Haiem’s standing has not been sufficiently alleged. The SAC alleges that “the injuries to PLAINTIFFS
TRUE HARMONY and HAIEM were joint and indivisible,” and that any violations of True Harmony and
the Delaware LLC’s rights were also violations of Haiem’s civil rights. SAC ¶ 67. This conclusory
statement does not establish standing. It is also alleged that Haiem was deprived “of his charitable
donation to TRUE HARMONY, which TRUE HARMONY was coerced to expend on legal fees and legal
expenses to defend against DEFENDANTS’ frivolous and sham actions in the courts involving the
Property.” Id. ¶ 68. That a person donated to a charity, is not a sufficient basis to establish that person’s
standing to sue for any alleged harms suffered by that charity.
Plaintiffs do not address these arguments. Rather, they state that Haiem has standing to sue under the
Fourth Cause of Action, because he is a taxpayer. As noted above, standing must be established for
each form of relief a plaintiff seeks. Oregon Prescription Drug Monitoring Program, 860 F.3d at 1233.
That Haiem may have standing to advance the Fourth Cause of Action does not establish his standing
to advance others.
Plaintiffs also argue that Holt v. College of Osteopathic Surgeons, 61 Cal. 2d 750 (1964) and L.B.
Research and Educ. Found. v. UCLA Found., 130 Cal. App. 4th 171 (2005) both confirm that Haiem
has standing. This argument is unpersuasive. Holt held that minority trustees may sue to enforce the
obligations of a charitable corporation. 61 Cal. 2d at 756-57. It is not alleged that Haiem is a minority
trustee. L.B. Research held that a donor to the University of California, Los Angeles had not created a
charitable trust, but a contract subject to a condition subsequent, which could be enforced by a civil
action. 130 Cal. App. 4th at 175. Again, there is no allegation that Haiem’s donation created a contract.
Cf. Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (plaintiffs must “clearly allege facts
Page 10 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 11 of 26 Page ID
#:5233
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

demonstrating each element of standing”) (internal citation omitted). Finally, both decisions address the
capacity to sue under California law, not whether a given injury is sufficient to establish for Article III
standing.
As to Thomas, the SAC alleges that the alleged conspiracy to violate the civil rights of True Harmony
and the Delaware LLC directly and proximately caused the sanctions imposed on Thomas. SAC ¶ 85.
Although these sanctions can be deemed an injury in fact, this conclusory allegation does not establish
causation. Rather, it appears from the judicially noticed documents that the Superior Court imposed
sanctions as a result of Thomas’s misconduct. See Thomas, 2018 WL 6566003, at *7 (“Despite our
order striking True Harmony's appeal, Thomas filed an opening brief on behalf of both True Harmony
and himself. The appeal addressed the merits of the underlying case and demurrer, and was not limited
to the sanctions order. Solomon again corresponded with Thomas asking him to withdraw his improper
brief. Thomas refused. Solomon then incurred further costs bringing a successful motion to strike the
opening brief. Even after we ordered Thomas to limit his brief to the sanctions order, Thomas still
argued the underlying judgment and matters unrelated to sanctions in the new opening brief.”); 1130
South Hope Street Investment Associates, LLC, 2015 WL 1897822, at *8 (“Thomas's approach toward
this appeal and his unprofessional and at times outrageous conduct toward counsel for Hope Park Lofts
show not only that this appeal was frivolous but that it was intended to harass Hope Park Lofts and to
drive up its litigation costs.”). Cf. Wash. Env’t Council v. Bellon, 732 F.3d 1131, 1141-42 (9th Cir. 2013)
(“Plaintiffs must show that the injury is causally linked or ‘fairly traceable’ to the [Defendants’] alleged
misconduct, and not the result of misconduct of some third party not before the court.”).
*
*
*
For the foregoing reasons, neither Haiem nor Thomas has standing to advance the first three causes of
action, except to the extent the Second Cause of Action seeks review of the sanctions entered against
Thomas.
(2)
Whether Plaintiffs Have Standing to Advance the Fourth Cause of
Action
The SAC alleges that Thomas, Haiem and members of True Harmony all pay federal and state income
taxes. Based on this, it alleges that they have standing to contest the unlawful “exaction” of taxes. SAC
¶ 113.
Although the nature of the “unlawful exactions of taxes” is not made clear in the SAC, Plaintiffs’ theory
appears to be that their state taxes increased as a result of the allegedly unlawful sale of property. SAC
¶ 117 (“[C]haritable assets are public assets that may be used in lieu of the welfare budget of the state
of California to provide public services to low or no income residents in need of them.”); Dkt. 106 at 12
(“It caused increased state taxes to pay for the welfare entitlements to compensate for the loss of
charitable assets.”).
This theory of injury fails for two reasons. First, “a litigant may not assume a particular disposition of
government funds in establishing standing[.]” DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 348 (2006).
Plaintiff’s theory of harm assumes that California necessarily spends additional money on welfare to
make up for any money lost by charitable organizations. But it is not alleged nor otherwise suggested
that any loss of charitable property necessarily results in an increase in welfare spending by the state.
Page 11 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 12 of 26 Page ID
#:5234
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

Second, if the alleged loss of charitable funds in fact caused California to increase welfare spending,
this would not necessarily require, or result in, the imposition of higher taxes. Instead, the state may
choose to reduce other spending. Thus, Plaintiff’s theory of injury “requires speculating that elected
officials will increase a taxpayer-plaintiff's tax bill to make up a deficit.” Id. at 344. This type of
speculation does not “suffice[] to support standing.” Id. (citing ASARCO Inc. v. Kadish, 490 U.S. 605,
614 (1989) (plurality opinion) and Warth v. Seldin, 422 U.S. 490, 509 (1975).
Plaintiffs argue that the test for municipal taxpayer standing is less stringent. However, the SAC does
not allege that any Plaintiff is a municipal taxpayer, nor does it identify any municipal expenditures that
harmed Plaintiffs. Because this SAC is not the first opportunity for Plaintiffs to allege facts that could
support a theory of municipal taxpayer standing, on a pragmatic level, it is too late to do so.
(3)
Whether Plaintiffs Have Standing to Advance the Fifth Cause of
Action
The SAC alleges that Plaintiffs are “residents of the state, and have standing to require the CAL AG to
exercise his discretion to enforce the public trust in charitable assets under the federal common law of
public charities registered under Section 501(c)(3) of the Internal Revenue Code.” SAC ¶ 127. See also
Dkt. 106 at 13 (“As residents of the state PLAINTIFFS have standing to sue the government
DEFENDANTS under state and federal common law to compel them to reasonably exercise their
parens patriae powers to conserve and protect public charitable assets.”).
Plaintiffs’ theory appears to be that any resident of the state of California has standing to compel the
Attorney General to enforce the Uniform Supervision of Trustees Act, i.e., that any resident of the State
suffers an injury when this Act is not enforced. This generalized grievance in the proper enforcement of
law does not support standing. See Hein v. Freedom from Religion Found., 551 U.S. 587, 601 and n.2
(2007) (collecting cases); see also Carney v. Adams, 141 S. Ct. 493, 498 (2020) (“[A]n abstract and
generalized harm to a citizen's interest in the proper application of the law does not count as an ‘injury
in fact.’”). 8

*
*
*
For the foregoing reasons, Plaintiffs do not have standing to advance the Fourth and Fifth Causes of
Action. Because there has been an adequate opportunity to assert these claims, and any further
In the California Opposition, Plaintiffs again assert new theories of standing not alleged in the SAC. Dkt. 106 at
12 (“PLAINTIFFS may assert that the failure of the STATE DEPARTMENT OF JUSTICE and XAVIER BECERRA
to allege a cause of action similar COA #3 in their own complaint to the court facilitates a taking of public property
as charitable assets without just compensation therefore.”). Assuming without deciding that these theories could
establish standing, the outcome would not change. The Eleventh Amendment bars injunctive relief against state
officers premised on violations of state law. See Pennhurst State School & Hosp. v. Haldeman, 465 U.S. 89, 106
(1984). Plaintiff’s vague references to “federal common law” do not change the fact that Plaintiffs challenge the
“nonenforcement of the cease and desist order,” which was issued pursuant to California law. Dkt. 106 at 10.
Indeed, Plaintiffs acknowledge that these causes of action could be, and likely are barred by the Eleventh
Amendment. Id. at 7 (“The GOVERNMENT DEFENDANTS could waive sovereign immunity for the purpose of
this one action.”).
8

Page 12 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 13 of 26 Page ID
#:5235
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

amendment would almost certainly be futile, these causes of action are DISMISSED WITH
PREJUDICE. 9
2.

The Rooker-Feldman Doctrine
a)

Legal Standards

Pursuant to the Rooker-Feldman doctrine, district courts do not have jurisdiction of actions that seek to
review state court judgments. Appellate jurisdiction over those judgments is exclusive to the Supreme
Court. See 28 U.S.C. § 1257. The doctrine “is confined to cases of the kind from which the doctrine
acquired its name: cases brought by state-court losers complaining of injuries caused by statecourt judgments rendered before the district court proceedings commenced and inviting district court
review and rejection of those judgments. Rooker-Feldman does not otherwise override or supplant
preclusion doctrine or augment the circumscribed doctrines that allow federal courts to stay or dismiss
proceedings in deference to state-court actions.” Exxon-Mobil Corp. v. Saudi Basic Industries Corp.,
544 U.S. 280, 284 (2005).
“To determine whether the Rooker-Feldman bar is applicable, a district court must first determine
whether the action contains a forbidden de facto appeal of a state court decision.” Bell v. City of Boise,
709 F.3d 890, 897 (9th Cir. 2013). A de facto appeal exists when “a federal plaintiff asserts as a legal
wrong an allegedly erroneous decision by a state court, and seeks relief from a state court judgment
based on that decision.” Id. The Ninth Circuit has stated that “even if a plaintiff seeks relief from a state
court judgment, such a suit is a forbidden de facto appeal only if the plaintiff also alleges a legal error
by the state court.” Id. If it is determined that, through a federal proceeding, a plaintiff seeks to bring a
“forbidden de facto appeal . . . that federal plaintiff may not seek to litigate an issue that is ‘inextricably
intertwined’ with the state court judicial decision from which the forbidden de facto appeal is brought.”
Id. The “‘inextricably intertwined’ language from Feldman is not a test to determine whether a claim is a
de facto appeal, but is rather a second and distinct step in the Rooker-Feldman analysis. Should the
action not contain a forbidden de facto appeal, the Rooker-Feldman inquiry ends.” Id. (italics in
original).
To determine whether an action constitutes a de facto appeal, district courts “pay close attention to the
relief sought by the federal-court plaintiff.” Cooper v. Ramos, 704 F.3d 772, 777-78 (9th Cir. 2012)
(internal citation omitted) (emphasis in original).
b)

Application
(1)

Whether the First Cause of Action Is Barred by Rooker-Feldman

The first cause of action is brought pursuant to 42 U.S.C. § 1983. It seeks three broad forms of relief on
the grounds that Defendants’ actions violated the Bankruptcy Clause of the U.S. Constitution, the
Supremacy Clause of the U.S. Constitution, the Due Process Clause of the U.S. Constitution, the
Bankruptcy Act, the Internal Revenue Code, and federal common law. First, the First Cause of Action
Although dismissal for lack of jurisdiction is ordinarily without prejudice, dismissal with prejudice is appropriate in
this action. See Section V, infra.

9

Page 13 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 14 of 26 Page ID
#:5236
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

seeks a declaratory judgment that the transfer of the property to the California LLC violated the civil
rights of True Harmony, the Delaware LLC, and Haiem, and that remedial injunctive relief is warranted.
i.e., an order compelling 1130 Hope Street Investment Associates LLC to reconvey title to True
Harmony and the Delaware LLC.
Plaintiffs acknowledge that this relief requires review of state court judgments, including those entered
in the Arbitration Action. Dkt. 114 at 13. Thus, this cause of action contains a forbidden de facto appeal.
Second, this cause of action seeks a declaratory judgment that the sale of the property to BIMHF
violated the civil rights of True Harmony and the Delaware LLC. Consequently, Plaintiffs argue that a
corresponding injunction is warranted that would require BIMHF to reconvey title to 1130 South Hope
Street Investment Associates, LLC, so that it can be reconveyed to True Harmony. It is alleged that the
sale was illegal because it was part of the “constitutionally sham and moot invalid judgments in [the
Arbitration Action].” SAC ¶ 65. Thus, granting this relief is also contingent on a finding error by the state
court in connection with the Arbitration Action. Thus, this claim also seeks a forbidden de facto appeal.
It is also alleged that the sale was illegal because it violated the Cease-and-Desist Order. Id. This
allegation does not raise a Rooker-Feldman issue. The alleged wrong is not a state court judgment, but
an "allegedly illegal act[] committed by a party against whom [Plaintiffs] ha[ve] previously litigated." Noel
v. Hall, 341 F.3d 1148, 1166 (9th Cir. 2003). This type of claim may be barred by issue or claim
preclusion.
Third, this cause of action seeks a declaratory judgment that the Interpleader Action was moot and all
orders made by the court in that proceeding violated the civil rights of True Harmony, the Delaware
LLC, and Haiem. These arguments seek relief from a state court judgment and allege that the orders
entered by the state court were in error. This is another forbidden de facto appeal.
Plaintiffs offer three reasons why Rooker-Feldman is not applicable to the portions of the First Cause of
Action that involve a de facto appeal. None is persuasive.
(a)

Bankruptcy Exception to Rooker-Feldman

Plaintiffs argue that, because the orders entered in the Arbitration Action violated the automatic stay,
they are void in abnitio and are not subject to the Rooker-Feldman doctrine. State court orders in
violation of the automatic stay may be challenged in a federal court, notwithstanding Rooker-Feldman.
See In re Gruntz, 202 F.3d 1074, 1083 (9th Cir. 2000) (“[T]he federal courts have the final authority to
determine the scope and applicability of the automatic stay…Thus, the Rooker-Feldman doctrine is not
implicated by collateral challenges to the automatic stay in bankruptcy.”). Plaintiffs identify five alleged
violations of the automatic stay:
First, on June 3, 2009, the Superior Court confirmed an arbitration award against True Harmony and
Haiem. See Dkt. 112-2 at 136 (the “June 2009 Judgment”). The June 2009 Judgment states that the
attempted cancellation of the California LLC was not effective, that True Harmony has not held “any
interest in the Property that could be transferred or encumbered since October 9, 2003,” and that any
attempt by True Harmony to transfer an interest in the Property subsequent to October 9, 2003 was
void as a matter of law. Plaintiffs argue that the June 2009 Judgment violated the automatic stay
Page 14 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 15 of 26 Page ID
#:5237
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

because it affected True Harmony’s effort to transfer the Property to the Delaware LLC.
The basis for this argument appears to be that the Property was “property of the estate” under 11
U.S.C. § 541, and was protected by the automatic stay pursuant to 11 U.S.C. § 362(a)(3). This
argument fails, because the underlying arbitration award issued by Schoettler had already afforded the
same relief, thereby depriving the Delaware LLC of any interest in the Property. See Cal. Civ. Proc.
Code § 1287.6 (“An award that has not been confirmed or vacated has the same force and effect as a
contract in writing between the parties to the arbitration.”). Accordingly, as of February 2009, the
Delaware LLC had no interest in the Property that could be protected by the automatic stay. 10 Also
unpersuasive is Plaintiffs’ suggestion that the June 3, 2009 Judgment violated the automatic stay
because it would later be used against the Delaware LLC. As the Second Circuit has explained, an
automatic stay cannot be reasonably construed to extend so broadly:
We have not located any decision applying the [automatic] stay to a non-debtor solely because
of an apprehended later use against the debtor of offensive collateral estoppel or the
precedential effect of an adverse decision. If such apprehension could support application of the
stay, there would be vast and unwarranted interference with creditors' enforcement of their
rights against non-debtor co-defendants.
Queenie, Ltd. v. Nygard Int’l, 321 F.3d 282, 288 (2d Cir. 2003).
Plaintiffs also argue that the automatic stay protected True Harmony, because it was an alter ego of the
Delaware LLC. Dkt. 69 at 12. No allegations are made to support this legal conclusion, and the SAC
elsewhere alleges that True Harmony and the Delaware LLC were separate corporate entities. SAC ¶¶
1, 3. Furthermore, the Ninth Circuit has “consistently held that the automatic stay does not apply to
suits against non-debtors.” In re Excel Innovations, Inc., 502 F.3d 1086, 1095 (9th Cir. 2007) (citing In
re Chugach Forest Prods., Inc., 23 F.3d 241, 246 (9th Cir. 1994)). Instead, non-debtors must seek
protection through the Bankruptcy Court’s general equity powers. See 11 U.S.C. § 105. “[S]uch
extensions, although referred to as extensions of the automatic stay, are in fact injunctions issued by
the bankruptcy court after hearing and the establishment of unusual need to take this action to protect
the administration of the bankruptcy estate.” Boucher v. Shaw, 572 F.3d 1087, 1093 n.3 (9th Cir. 2009)
(internal citations and quotation marks omitted). Thus, for True Harmony to have obtained the benefit of
the automatic stay, it had to seek relief in the Bankruptcy Court during those proceedings. Having failed
to do so, it cannot litigate the issue in an “entirely retrospective” proceeding in a new forum. In re
Chugach Forest Prods., 23 F.3d at 247 n.3 (extension of the automatic stay was “particularly
inappropriate” when litigant sought a retroactive extension, rather than prospective relief to protect the
debtor’s estate). See also Boucher, 572 F.3d at 1093 n.3 (request for dismissal of a claim in the district
court “is not analogous to a prospective request for an injunction from the bankruptcy court”).

Plaintiffs also make a vague argument that the “judgment dated July 8, 2008” could have been challenged as a
preferential transfer pursuant to 11 U.S.C. § 547, and that the settlement agreement obtained in the Quiet Title
Action could have been rejected as an executory contract pursuant to 11 U.S.C. § 365. These issues were not
litigated in the Bankruptcy Proceedings, which concluded more than ten years ago. See B.R. Dkt. 47 (Order
Dismissing Case) (Sep. 15, 2010). Speculating as to what the Bankruptcy Court might have done if these
hypothetical motions had been brought is not sufficient to show that the Delaware LLC had an interest in the
Property and, consequently, that the Property was protected by the automatic stay.

10

Page 15 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 16 of 26 Page ID
#:5238
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

The conclusion that the June 2009 Judgment did not violate the automatic stay is also consistent with a
review of the actions by the Bankruptcy Court. A copy of the June 2009 Judgment was attached to the
initial motion for relief from the bankruptcy stay. B.R. Dkt. 32 at 36. The Delaware LLC argued at the
time that this action had been taken in error and was in violation of the automatic stay. B.R. Dkt. 35 at
3. The Bankruptcy Court did not accept that argument and instead lifted the stay as to the Arbitration
Action. B.R. Dkt. 37. Although this is not conclusive, it is significant that the Bankruptcy Court, which
had the jurisdiction to issue a further injunction if necessary, 11 U.S.C. § 105, did not do so.
Second, the Superior Court granted summary judgment on the fifth cause of action against True
Harmony and its officers. Dkt. 112-2 at 189. Plaintiffs allege that this decision violated the automatic
stay because it affected the Delaware LLC’s purported interest in the Property. Because, as noted
above, the arbitration award had already deprived the Delaware LLC of any such interest, this
argument also fails.
Third, after the automatic stay was lifted on February 24, 2010, B.R. Dkt. 37, the Superior Court
commenced a trial on March 15, 2010, despite Plaintiffs’ request for a continuance. Dkt. 112-2 at 146.
Plaintiffs argue that this violated the automatic stay because the request for a continuance was
reasonable. In the Oppositions, Plaintiffs also argue that this violated 11 U.S.C. § 108(c)(2), which they
interpret as imposing a 30-day grace period after a stay is lifted. Neither argument is persuasive. The
reasonableness of the request for a continuance has no relevance to whether the automatic stay was
violated. Whether to allow a continuance is within the discretion of a trial court. Further, 11 U.S.C. §
108(c)(2) provides rules for the calculation of statutes of limitations after an automatic stay ends or is
lifted. It does not require that a litigant be given a certain amount of time after a stay is lifted to proceed.
Fourth, the Superior Court entered judgment on the fifth cause of action against the Delaware LLC on
March 15, 2010. Dkt. 112-2 at 189. Plaintiffs argue that this violated the automatic stay because the
grant of summary judgment had itself violated the automatic stay. Because, as discussed above, there
was no underlying violation, this argument fails.
Finally, the Superior Court entered judgment after trial on April 22, 2010. Dkt. 112-2 at 195. Plaintiffs
appear to argue that because Defendants filed a second request to lift the automatic stay in the
Bankruptcy Court, this means that the stay still applied to the Arbitration Action. SAC at 12. This
misstates the relief sought in the Bankruptcy Proceedings. The Order lifting the stay provided that a
judgment could be obtained against the Delaware LLC, but that the stay would still apply to any effort to
enforce that judgment. B.R. Dkt. 37 at 1. Defendants filed the second request to lift the stay to permit
such enforcement. B.R. Dkt. 40. This request was made unnecessary by the dismissal of the
Bankruptcy Proceedings. B.R. Dkts. 44, 47. Because the initial order lifting the stay permitted
Defendants to obtain a judgment against the Delaware LLC, the April 2010 Judgment did not violate the
automatic stay.
*
*
*
For the foregoing reasons, Plaintiffs have not shown that any orders entered, or other actions in the
Arbitration Action violated the automatic stay.

Page 16 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 17 of 26 Page ID
#:5239
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Title

True Harmony et al v. The Department of Justice of the State of California et al
(b)

Date

April 13, 2021

State Court Policy

Plaintiffs next argue that the allegedly unlawful acts constituted a policy of the state courts, that these
acts violated the Supremacy Clause and the Bankruptcy Clause, and that these policies can be
reviewed. This argument relies on Dubinka v. Judges of Superior Court of Cal. for Cnty of L.A., 23 F.3d
218 (9th Cir. 1994). In that case, defendants in pending criminal prosecutions filed a federal action
challenging the constitutionality of California's Proposition 115, which amended pretrial discovery rules.
23 F.3d at 220-21. Because the district court could “easily analyze” their general constitutional
challenges to Proposition 115 “without resorting to the state trial courts’ discovery orders in... [their]
pending cases,” the Rooker-Feldman doctrine did not apply. Id. at 222.
Dubinka is distinguishable. Plaintiffs have not identified any extrinsic policy of the state courts. Indeed,
Plaintiffs allege that a “single act” of a judge is enough to prove a “policy or custom.” SAC ¶ 26. In
effect, Plaintiffs argue that the underlying state court judgments are the policies they seek to review.
Thus, there is no way to analyze the purportedly unconstitutional policies without reviewing “a final state
court judgment in a particular case.” District of Columbia Court of Appeals v. Feldman, 460 U.S. 462,
486 (1983). Accordingly, Plaintiffs’ challenge is “inextricably intertwined” with the underlying state court
decisions, and thus barred by Rooker-Feldman.
(c)

Conspiracy

Finally, Plaintiffs argue that state court judges, clerks, and other officials aided and abetted a
“conspiracy” among the Defendants. This conclusory argument is not supported by any allegations in
the SAC. Under these circumstances, “[t]he alleged conspiracy is a fig leaf for taking aim at the state
court's own alleged errors.” Cooper, 704 F.3d at 782. Thus, this argument fails to show that RookerFeldman is inapplicable.
(d)

Other Deficiencies

As noted, the First Cause of Action is not barred by Rooker-Feldman to the extent it alleged that the
sale was illegal because it violated the Cease and Desist Order. However, as a general rule, “a
violation of state law does not lead to liability under § 1983.” Campbell v. Burt, 141 F.3d 927, 930 (9th
Cir. 1998) (citing Davis v. Scherer, 468 U.S. 183, 194 (1984)); see also Flagg Bros., Inc. v. Brooks, 436
U.S. 149, 155 (1978) (Section 1983 plaintiffs are “bound to show that they have been deprived of a
right ‘secured by the Constitution and the laws’ of the United States”). Plaintiffs allege a violation of a
Cease and Desist Order, which only references provisions of state law. SAC at 77-78 (citing Cal. Corp.
Code § 5913). Plaintiffs do not explain how any violation of these provisions would cause or lead to a
violation of a federally secured right, only alleging that the Internal Revenue Code and “federal common
law” are at issue. SAC at 42. Even if federal and state law on taxation have some common elements, it
does not follow that the violation of a California statute necessarily violates that law. Accordingly,
although this portion of the First Cause of Action is not barred by Rooker-Feldman, it fails on the merits.
Second, although the SAC is not a model of clarity, it appears to present allegations of fraud in the
Interpleader Action. “A plaintiff alleging extrinsic fraud on a state court is not alleging a legal error by the
state court; rather, he or she is alleging a wrongful act by the adverse party.” Kougasian v. TMSL, Inc.,
359 F.3d 1136, 1140-41 (9th Cir. 2004). However, such a cause of action would fail on the merits,
Page 17 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 18 of 26 Page ID
#:5240
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

because these precise arguments were made in Thomas v. Zelon, another federal action brought by
Thomas. The Magistrate Judge in that action thoroughly considered the allegations of fraud in
connection with the Interpleader Action and determined that they did not state a claim for extrinsic
fraud. The Report and Recommendation was accepted, and that decision was affirmed by the Ninth
Circuit. Thomas v. Zelon, No. CV 16-6544 JAK (AJW), 2017 WL 6017345 (C.D. Cal. Feb. 23, 2017),
aff’d, 715 F. App’x 780 (9th Cir. 2018). Although the dismissal of the complaint in that case was without
prejudice, and did not operate as a ruling on the merits, the analysis of the Magistrate Judge that was
adopted is instructive:
To the extent that the “extrinsic fraud” alleged by plaintiff consists of the discrepancy in the
name under which the interpleader action was filed, it fails. Plaintiff seems to complain that the
plaintiff in the interpleader action was named as “1130 Hope Street LLC” but at the time it filed
the action (July, 28, 2011), 1130 Hope Street LLC had changed its name to 1130 South Hope
Street LLC. It is not evident that any such discrepancy would invalidate the interpleader action
or deprive the state court of jurisdiction. Furthermore, on September 16, 2013—prior to the
Superior Court's December 4, 2013 order in the interpleader action and prior to plaintiff' filing the
frivolous appeal (January 31, 2014)—1130 South Hope Street LLC changed its name back to
1130 Hope Street LLC. [Dkt. 55-3]. This action would have retroactive effect under California
law.
To the extent that plaintiff's claim of “extrinsic fraud” is based upon the 2008 cancellation of the
1130 South Hope Street LLC, it fares no better. As plaintiff concedes, the Superior Court found
that the 2008 cancellation was fraudulent, and on August 28, 2013 judgment was entered
reinstating both 1130 South Hope Street LLC and Hope Park Lofts LLC. [Complaint, Ex. 4 (Los
Angeles Superior Court Case No. BS140530) ]. Moreover, in a separate action, the Los Angeles
Superior Court entered judgment finding that 1130 South Hope Street LLC remained a valid
existing LLC, and that its LLC had not been cancelled. [Dkt. 55-2 at 5 (Los Angeles Superior
Court Case No. BC385560)]. Further, the court found that True Harmony and its associates or
representatives, including plaintiff's client Ray Haiem, had caused the fraudulent cancellation of
1130 South Hope Street LLC. In fact, the judgment permanently enjoined True Harmony, “and
all individuals and entities acting on it [sic] behalf” from “taking any actions or filing any
documents which ... represent that [1130 South Hope Street LLC] is not a valid and existing
entity” or “doing anything to suggest or to create any record that [1130 South Hope Street LLC]
is cancelled or dissolved or anything other than in good standing.” [Dkt. 55-2 at 9]. On April 22,
2010, the Superior Court in the same case entered a further judgment reaffirming that 1130
South Hope Street, LLC “remained an existing California LLC,” that any document purporting to
cancel the LLC is “deemed void.” [Dkt. 55-3 at 2-6]. Thus, plaintiff's allegations of fraud are
contradicted by the record[.]…
Even if there was some error in the name under which the interpleader action was brought, it did
not constitute extrinsic fraud because it was not conduct which prevents a party from presenting
his claim in court.
Thomas v. Zelon, No. CV 16-6544 JAK (AJW), Dkt. No. 103 (Jan. 17, 2017) (Magistrate Judge’s Report
and Recommendation). This reasoning persuasively explains why Plaintiffs’ allegations do not show
any extrinsic fraud.
Page 18 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 19 of 26 Page ID
#:5241
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

*
*
*
For the foregoing reasons, the First Cause of Action is barred by Rooker-Feldman, or fails to state a
claim. Although this cause of action also seeks compensatory damages and attorney’s fees in
connection with certain forms of injunctive relief, these can only succeed to the extent that the
underlying state court orders are overturned. Cf. Homola v. McNamara, 59 F.3d 647, 651 (7th Cir.
1995) (“[I]f a suit seeking damages for the execution of a judicial order is just a way to contest the order
itself, then the Rooker-Feldman doctrine is in play.”).
(2)
Whether The Second Cause of Action is Barred by RookerFeldman
The Second Cause of Action generally seeks the same substantive relief as the first cause of action,
but on the grounds that various transactions violated Plaintiffs’ constitutional right of access to the
courts. It is also brought pursuant to Section 1983. Based on the allegations in the SAC, it appears to
allege that the judgments were obtained by extrinsic fraud. Accordingly, Rooker-Feldman does not bar
subject matter jurisdiction to the extent this cause of action seeks to set aside the judgments on this
ground.
The Second Cause of Action also seeks review of sanctions that were imposed against Thomas.
Thomas argues that the sanctions imposed in both the Interpleader Action and the Recovery Action
were illegal. In support of this position he claims that, because the sanctions were punitive, a decision
to impose them required heightened due process safeguards. He also argues that the trial court did not
have jurisdiction to modify the sanctions amount following the appeal. Thomas also contends that
Defendants abused the discovery process, and there was insufficient evidence of frivolity at the trial
and appellate levels. This claim is barred by Rooker-Feldman, because Thomas is seeking review of
state court judgments and alleges legal error in connection with their entry.
Plaintiffs also allege that Defendants are liable for “caus[ing] the courts to impose” the wrongful
sanctions. SAC ¶ 87. This constitutes an argument that the sanctions were wrongfully imposed.
Because this claim “succeeds only to the extent that the state court wrongly decided the issues before
it,” it is barred by Rooker-Feldman. Cooper, 704 F.3d at 779 (quoting Pennzoil Co. v. Texaco, Inc., 481
U.S. 1, 25 (1987)).
Thomas responds as to why the claims are not barred. He contends that he is entitled to review
because the judgments in the 2014 action and appeal were based on prior rulings that violated the
automatic stay. Dkt. 115 at 11. As noted above, Plaintiffs have not identified any violation of the
automatic stay. Thus, the Rooker-Feldman doctrine bars this claim. Thomas admits that he “seeks
review” of these state court judgments, and alleges a legal error by that court -- the failure to “assume
the truth of the allegation[]” that the past judgments violated the automatic stay. Id.
Thomas also argues that he is challenging “the [state court’s] policy of ignoring the federal
requirements of procedural due process for punitive sanctions.” Dkt. 115 at 12. He argues that this
claim is not “inextricably intertwined” with the state court judgments because the state courts ignored
the argument when it was presented there. Id. This argument fails. As Thomas concedes, he raised
these arguments in state court, and he seeks review of the decisions denying the relief he sought. “The
Page 19 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 20 of 26 Page ID
#:5242
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

silence of the California courts does not indicate that they failed to consider the constitutional claims
presented to them.” Bianchi v. Rylaarsdam, 334 F.3d 895, 900 (9th Cir. 2003). “To conclude otherwise
would require [the court] to assume that the ‘state judges [were] not ... faithful to their constitutional
responsibilities.’” Id. (quoting Huffman v. Pursue, Ltd., 420 U.S. 592, 611 (1975)).
*
*
*
For the foregoing reasons, the Second Cause of Action is barred by the Rooker-Feldman doctrine to
the extent it seeks to review sanctions imposed against Thomas. Because these sanctions have
allegedly caused state bar authorities to seek a suspension of Thomas’s bar licenses, these orders are
also alleged to violate the constitutional rights of the remaining Plaintiffs. 11 See SAC ¶¶ 87, 90. These
claims are also barred by Rooker-Feldman, because reaching the question of whether the remaining
Plaintiffs’ constitutional rights were violated would require the same inquiry detailed above, i.e., whether
or not the state court erred in assessing sanctions against Thomas.
3.

Whether the Third Cause of Action Is Barred by Rooker-Feldman

The Third Cause of Action seeks the same substantive relief as the First Cause of Action, but on the
grounds that the sale of the Property breached the public trust in charity. SAC at 68. This cause of
action is for “damages, injunction, and declaratory judgment and other equitable relief against fraud
under Cal. Govt. Code § 12596(b).” SAC at 56. As noted, the sale of the Property was not a state court
judgment, but an “allegedly illegal act[] committed by a party against whom [Plaintiffs] ha[ve] previously
litigated.” Noel, 341 F.3d at 1166. Accordingly, Rooker-Feldman does not bar this cause of action.
C.

Motion to Dismiss Under Fed. R. Civ. P. 12(b)(6)

Fed. R. Civ. P. 8(a) provides that a “pleading that states a claim for relief must contain . . . a short and
plain statement of the claim showing that the pleader is entitled to relief.” The pleading that states a
claim must state facts sufficient to show that a claim for relief is plausible on its face. See Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570 (2007). The complaint need not include detailed factual allegations but
must provide more than a “formulaic recitation of the elements of a cause of action.” Id. at 555. “The
plausibility standard is not akin to a ‘probability requirement,’ but it asks for more than a sheer
possibility that a defendant has acted unlawfully. Where a complaint pleads facts that are ‘merely
consistent with’ a defendant’s liability, it stops short of the line between possibility and plausibility of
entitlement to relief.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (internal quotation marks and citations
omitted).
Pursuant to Fed. R. Civ. P. 12(b)(6), a party may bring a motion to dismiss a cause of action that fails to
state a claim. It is appropriate to grant such a motion only where the complaint lacks a cognizable legal
theory or sufficient facts to support one. See Mendiondo v. Centinela Hosp. Med. Ctr., 521 F.3d 1097,
1104 (9th Cir. 2008). In considering a motion to dismiss, the allegations in the challenged complaint are
deemed true and must be construed in the light most favorable to the non-moving party. See Cahill v.
On August 19, 2020, Thomas was involuntarily suspended from the active practice of law pursuant to Cal. Bus.
& Prof. Code § 6007(c)(2). See Smart Search, The State Bar of California,
https://apps.statebarcourt.ca.gov/dockets.aspx (search “Thomas, Jeffrey Gray”) (last visited April 12, 2021). On
April 1, 2021, Thomas was disbarred from the Bar of the Central District of California. In re Jeffrey Gray Thomas,
No. AD20-00779, Dkt. 10 (April 1, 2021).
11

Page 20 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 21 of 26 Page ID
#:5243
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

Liberty Mut. Ins. Co., 80 F.3d 336, 337-38 (9th Cir. 1996). However, a court need not “accept as true
allegations that contradict matters properly subject to judicial notice or by exhibit. Nor is the court
required to accept as true allegations that are merely conclusory, unwarranted deductions of fact, or
unreasonable inferences.” In re Gilead Sciences Sec. Litig., 536 F.3d 1049, 1055 (9th Cir. 2008) (citing
Sprewell v. Golden State Warriors, 266 F.3d 979, 988 (9th Cir. 2001)).
D.

Analysis
1.

Whether the Second Cause of Action is Barred by Res Judicata
a)

Legal Standards

Res judicata presents two issues: claim preclusion and issue preclusion. DKN Holdings LLC v. Faerber,
61 Cal. 4th 813, 823 (2015). Claim preclusion, "acts to bar claims that were, or should have been,
advanced in a previous suit involving the same parties." Id. at 824. Issue preclusion, or collateral
estoppel, bars “relitigating issues that were argued and decided in the first suit.” Id. Issue preclusion
applies even when a subsequent lawsuit raises a new cause of action. It can also be asserted by a
litigant who is not a party or in privity with one in the first suit. Id. at 824-25. However, in accordance
with due process, it can only be advanced against a party to the first suit, or an entity in privity with such
a party. Id. at 824.
The threshold requirements for issue preclusion are: “(1) the issue is identical to that decided in the
former proceeding, (2) the issue was actually litigated in the former proceeding, (3) the issue was
necessarily decided in the former proceeding, (4) the decision in the former proceeding is final and on
the merits, and (5) preclusion is sought against a person who was a party or in privity with a party to the
former proceeding.” Hensel Phelps Constr. Co. v. Dep't of Corrs. & Rehab., 45 Cal. App. 5th 679, 695
(2020).
b)

Application

As noted, the Second Cause of Action seeks to set aside state court judgments on the ground of
extrinsic fraud. The acts alleged to constitute fraud are Perry’s alleged breaches of professional ethics
in the Quiet Title Action, his alleged breach of the “federal common law of adverse conflicts of interest”
by setting up the joint venture, his waiver of attorney-client privilege, and his alleged misrepresentations
as to the approval by the California Attorney General. SAC ¶¶ 79-81.
These allegations were also made in the Recovery Action. True Harmony expressly raised Perry’s
alleged violations of Rule of Professional Conduct 3-300 in that action as a reason to set aside the
various judgments in the Quiet Title Action. See Dkt 112-1 at 55, Second Amended Complaint, ¶¶ 64,
100. True Harmony also raised the alleged conflict of interest created by Perry’s role in the joint
venture, as well as the alleged issues regarding the approval by the California Attorney General. Id. ¶
43; id. ¶ 48; Id. ¶ 64; id. ¶ 100 (allegations that Perry violated Rule of Professional Conduct 3-310,
regarding adverse interests). The Superior Court granted a demurrer as to the complaint in the
Recovery Action, holding that these allegations did not state a claim for extrinsic fraud and, therefore,
provided no basis for setting aside the judgment. See Dkt. 112-1 at 154.
Page 21 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 22 of 26 Page ID
#:5244
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

Based on the foregoing, the threshold requirements for the application of issue preclusion are met.
Although the SAC is not a model of clarity, it is premised on the same facts at issue in the Recovery
Action. The various Oppositions do not identify any new facts. Further, the issue was actually litigated
in the Recovery Action. The same allegations made here were raised as examples of extrinsic fraud.
The Superior Court considered and rejected them. It has also been shown that the issue was
necessarily decided in the Recovery Action. The Superior Court expressly held that these allegations
were not sufficient to state a claim of extrinsic fraud. The Superior Court decision was final. Under
California law, a demurrer which is sustained without leave to amend for failure of the facts alleged to
establish a cause of action is a judgment on the merits that is entitled to preclusive effect. Kanarek v.
Bugliosi, 108 Cal. App. 3d 327, 334 (1980).
Finally, preclusion applies to True Harmony, which was a party to the Recovery Action, and the
Delaware LLC, which is in privity with True Harmony. “‘Privity’ as used in the context of res judicata or
collateral estoppel, does not embrace relationships between persons or entities, but rather it deals with
a person's relationship to the subject matter of the litigation.” Cal Sierra Development, Inc. v. George
Reed, Inc., 14 Cal. App. 5th 663, 674 (2017) (internal citation omitted). The Delaware LLC is alleged to
have been created by True Harmony and to act as its agent. SAC ¶ 3. It is also alleged that the
Delaware LLC was formed to hold the Property. Id. The issue in that litigation was the ownership of the
Property, and whether it had been unlawfully taken from True Harmony. The Delaware LLC had no
independent interest in the Property; its only claim to the Property arises from True Harmony's alleged
transfer. Under these circumstances, the Delaware LLC was in privity with True Harmony. If it were
permitted to relitigate these issues, it would not be asserting any independent rights, but only those of
True Harmony.
For these reasons, issue preclusion applies. Thus, “the propriety of preclusion depends upon whether
application will further the public policies of ‘preservation of the integrity of the judicial system,
promotion of judicial economy, and protection of litigants from harassment by vexatious litigation.”
Hensel Phelps, 45 Cal. App. 5th at 695. Given the long history of this dispute and the many, cumulative
actions that True Harmony has filed, preclusion is appropriate. Accordingly, the Second Cause of
Action is barred by issue preclusion.
2.

Whether the Second Cause of Action Alleges a Civil Rights Claim
a)

Legal Standards

Section 1983 provides a cause of action for a person who is deprived of constitutional rights. It can only
be violated by “conduct that may be fairly characterized as ‘state action.’” Lugar, 457 U.S. at 924. See
also Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 50 (1999) (Section 1983 does not reach “merely
private conduct, no matter how discriminatory or wrongful”) (internal citation omitted).
To assess when “governmental involvement in private action” rises to this level, Lugar set out a twoprong framework. Ohno v. Yasuma, 723 F.3d 984, 994 (9th Cir. 2013). “The first prong asks whether
the claimed constitutional deprivation resulted from “the exercise of some right or privilege created by
the State or by a rule of conduct imposed by the state or by a person for whom the State is responsible.
The second prong determines whether the party charged with the deprivation could be described in all
fairness as a state actor.” Id. (citing Lugar, 457 U.S. at 937). A state actor is an actor “for whom a
Page 22 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 23 of 26 Page ID
#:5245
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

domestic governmental entity is in some sense responsible.” Id. at 995.
b)

Application

As to the first Lugar prong, the SAC alleges that Plaintiffs’ constitutional rights were deprived through
misconduct by Defendants. It is alleged that that: Defendants made “misrepresentations to the courts,”
SAC ¶ 84; filed “sham petitions for sanctions,” id. ¶ 85; brought “groundless and frivolous actions,” id. ¶
88; and “abused the state law [A]nti-[S]lapp statute.” Id. ¶ 89. It does not allege that the state
procedures were constitutionally defective. Because “private misuse of a state statute does not
describe conduct that can be attributed to the state,” these allegations do not provide a basis for the
claim alleged. Lugar, 457 U.S. at 941; See also Collins v. Womancare, 878 F.2d 1145, 1152-53 (9th
Cir. 1989) (collecting cases).
Similarly, Plaintiffs have not alleged any facts relevant to the second prong of Lugar, i.e., whether the
party charged with the deprivation can be described as a state actor. Plaintiffs rely on the “joint action”
test and the “nexus” test. Dkt. 114 at 19. Under the joint action test, “courts examine whether state
officials and private parties have acted in concert in effecting a particular deprivation of constitutional
rights.” Franklin v. Fox, 312 F.3d 423, 445 (9th Cir. 2002) (citing Gallagher v. Neil Young Freedom
Concert, 49 F.3d 1442, 1453 (10th Cir. 1995)). The SAC does not include any such allegations. To the
contrary, it alleges that state court judges were misled by Defendants. See, e.g., SAC ¶¶ 84, 87.
Allegations that Defendants defrauded a court are not sufficient to show joint action. Instead, the
allegations must be ones that, if established, would show that both the private defendant and the public
entity shared the goal of “violating a plaintiff's constitutional rights.” Franklin, 312 F.3d at 445. Plaintiffs
argue that the SAC alleges a conspiracy involving Defendants and state officials. However, none is
actually alleged in the SAC. Because the Ninth Circuit has been “careful to require a substantial degree
of cooperation before imposing civil liability for actions by private individuals that impinge on civil rights,”
conclusory charges of conspiracy in a brief cannot suffice to establish liability. Id. The allegations in the
SAC also fail to state that there is a sufficiently “close nexus between the state and the challenged
action.” Villegas v. Gilroy Garlic Festival Ass’n, 541 F.3d 950, 955 (9th Cir. 2008) (quoting Brentwood
Academy v. Tenn. Secondary Sch. Athletic Ass’n, 531 U.S. 288, 295 (2001)).
For the foregoing reasons, the Second Cause of Action does not state a claim under Section 1983.
3.

Whether the Third Cause of Action States a Claim
a)

Legal Standards

Plaintiffs argue that this cause of action alleges fraud and common law fraudulent transfer. Dkt. 112 at
18. Under California law, a plaintiff alleging fraud must show “(a) misrepresentation (false
representation, concealment, or nondisclosure); (b) knowledge of falsity (or ‘scienter’); (c) intent to
defraud, i.e., to induce reliance; (d) justifiable reliance; and (e) resulting damage.” Kearns v. Ford Motor
Co., 567 F.3d 1120, 1126 (9th Cir. 2009) (quoting Engalla v. Permanente Med. Group, Inc., 15 Cal. 4th
951, 974 (1997)).
The elements for a common law fraudulent transfer claim are the same as those in Cal. Civ. Code §
Page 23 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 24 of 26 Page ID
#:5246
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

3439. Kelleher v. Kelleher, No. 13–cv–05450–MEJ, 2014 WL 94197, at *6 (N.D. Cal. Jan. 9, 2014)
(citing Arluk Med. Ctr. Indus. Group, Inc. v. Dobler, 116 Cal. App. 4th 1324, 1340 (2004)). A transfer is
fraudulent if it is made with actual intent to hinder, delay, or defraud a creditor, or if it is made without
receiving a reasonably equivalent value and certain other conditions are met. Cal. Civ. Code §
3439.04(a).
b)

Application
(1)

Fraud

Plaintiffs identified 25 examples of conduct by the Defendants that allegedly constituted fraud. SAC ¶
24. These allegations do not distinguish among conduct by the different Defendants. Accordingly, the
SAC does not comply with Fed. R. Civ. P. 9(b), which requires allegations of fraud to be pleaded with
particularity.
Even if these allegations were more clearly pleaded, they would not support a viable cause of action for
fraud. Many of these alleged acts of fraud are protected by the California litigation privilege. See Cal.
Civ. Code § 47(b). “The breadth of the litigation privilege cannot be understated. It immunizes
defendants from virtually any tort liability (including claims for fraud), with the sole exception of causes
of action for malicious prosecution.” Olsen v. Harbison, 191 Cal. App. 4th 325, 333 (2010) (quoting
Silberg v. Anderson, 50 Cal. 3d 205, 215-16 (1990)). The privilege applies to “any communication (1)
made in judicial and quasi-judicial proceedings; (2) by litigants or other participants authorized by law;
(3) to achieve the objects of the litigation; and (4) that have some connection or logical relation to the
action.” Rusheen v. Cohen, 37 Cal. 4th 1048, 1057 (2006).
At least 20 of the alleged fraudulent actions refer specifically to communicative acts taken during
litigation. These include specific arguments to a judge, or acts taken to effect the judgments obtained
through those actions. 12 See Rusheen, 37 Cal. 4th at 1061-62 (noncommunicative act such as
collecting on a judgment is privileged if based on privileged conduct).
Plaintiffs argue that the litigation privilege does not apply because the fraud claim is a “hybrid arising
under federal law.” Dkt. 114 at 23. However, Plaintiffs do not identify what federal law is at issue, or
would support these claims. 13
See SAC ¶ 24(b) (Perry’s testimony in the Quiet Title Action after being relieved as counsel for True Harmony);
¶ 24(c) (same); id. ¶ 24(f) (confirmation of “sham arbitration hearings”); id. ¶ 24(g) (“frivolous and sham civil
actions”); id. ¶ 24(h) (“sham argument to the state court of appeals”); id. ¶ 24(i) (“sham argument to the state court
of appeals in 2007”); id. ¶ 24(k) (obtaining order to arbitrate in superior court); id. ¶ 24(l) (alleged violations of the
automatic stay); id. ¶ 24(m) (allegation that sale of the Property related to judgments that violated the automatic
stay); id. ¶¶ 24(p)-(s) (actions taken to carry out the Interpleader Action); id. ¶ 24(t) (“moving the state courts for
and obtaining the monetary sanctions against Plaintiff THOMAS”); id. ¶ 24(u) (“bringing moot and sham anti-slapp
motions and a sham motion for protective order”); id. ¶ 24(v) (“the continued sham violation of the automatic stay
in bankruptcy”); id. ¶ 24(w) (“sham application of collateral estoppel”); id. ¶ 24(x) (“causing the entry of sham
judgments”); id. ¶ 24(y) (obtaining clerk’s deeds to the Property after judgment); id. ¶ 24(z) (continuing to claim
title to the Property).
13 Thomas separately argues that the litigation privilege is never applied to causes of action under Section 1983,
Dkt. 115 at 18, but the Third Cause of Action is not brought under that statute.
12

Page 24 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 25 of 26 Page ID
#:5247
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

The remaining allegations of fraudulent conduct include that Perry made certain misrepresentations to
True Harmony when he acted as counsel in the Quiet Title Action. These alleged acts took place
between October 2003 and April 2005. Hope Park Lofts, 2007 WL 841770, at *2-8. The allegedly
fraudulent nature of these acts was evident to Plaintiffs by the time of the appeal in the Quiet Title
Action, in which they raised them. Id. at *21-22. Because an action for fraud against an attorney is
subject to a three-year statute of limitations, Cal. Code Civ. Proc. § 338(d), these claims are timebarred. See Foxen v. Carpenter, 6 Cal. App. 5th 284, 295 (2016).
Plaintiffs also allege that the sale of the Property to BIMHF was fraudulent both because it violated the
Cease and Desist Letter and was substantially below market value. SAC ¶¶ 24(m)-(o). They do not
allege that any representations or omissions in connection with these events were false or misleading.
Plaintiffs argue that no administrative hearing was held on the alleged violation identified in the Cease
and Desist Letter. Why this is relevant is not made clear. Plaintiffs also argue that the cease-and-desist
letters are equivalent to those the Ninth Circuit examined in Porter v. Bowen, 496 F.3d 1009 (9th Cir.
2007). Again, it is not clear why this matters in this action. Porter involved a First Amendment claim
arising from cease-and-desist orders sent to a website that published statements on political issues. Id.
at 1012-13. It did not concern claims of fraud, and its discussion of cease-and-desist orders is very
general. Id. at 1022 (“California's police power plainly authorizes state officials to send cease-anddesist letters to websites that are believed to be in violation of an otherwise valid statute, and to
prosecute the websites' owners for their offenses.”).
(2)

Common Law Fraudulent Transfer

The SAC also lacks sufficient allegations to state a claim for fraudulent transfer. The SAC does not
adequately allege that these transactions were made with fraudulent intent. Although it is alleged that
the sale was unlawful because of the violation of the Cease and Desist Letter, this does not establish
that the sale was effected to impair the rights of any creditor. Although the SAC alleges that the
Property was sold for less than its actual value, SAC ¶ 24(o), it does not allege that the seller was left
with “unreasonably small capital” or was unable to pay debts as any came due.
Plaintiff argues that the Uniform Voidable Transactions Act is inapplicable and that the fraudulent
conveyance element is one part of an ongoing fraud. This is not sufficient to state a claim for fraudulent
transfer.
*
*
*
For the foregoing reasons, the Third Cause of Action does not state a claim for fraud or common law
fraudulent conveyance. Accordingly, the Motion is GRANTED as to the Third Cause of Action, and it is
DISMISSED WITH PREJUDICE.
V.

Whether Dismissal Should be With Prejudice

As noted, there is no subject matter jurisdiction over certain of Plaintiffs’ causes of action because
either Plaintiffs lack standing or the cause of action is barred by the Rooker-Feldman doctrine. The
general rule is that a dismissal for lack of jurisdiction is without prejudice. Missouri ex rel. Koster v.
Page 25 of 26

Case 8:20-cv-00170-JAK-ADS Document 148 Filed 04/13/21 Page 26 of 26 Page ID
#:5248
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

SA CV20-00170 JAK (ADSx)

Date

April 13, 2021

Title

True Harmony et al v. The Department of Justice of the State of California et al

Harris, 847 F.3d 646, 656 (9th Cir. 2017); see also Kelly v. Fleetwood Enters., Inc., 377 F.3d 1034,
1036 (9th Cir. 2004) (“[B]ecause the district court lacked subject matter jurisdiction, the claims should
have been dismissed without prejudice.”).
A dismissal without prejudice permits a plaintiff to “reassert his claims in a competent court.” Frigard v.
United States, 862 F.2d 201, 204 (9th Cir. 1988). The lengthy history of this litigation, which involves
several cumulative actions advancing similar claims, supports a finding that Thomas has acted in
response to such dismissals by seeking to re-litigate matters. After the Thomas v. Zelon action was
dismissed, Plaintiffs brought nearly identical claims in this action. They have argued that the Thomas v.
Zelon dismissal is “simply irrelevant” because it was for lack of jurisdiction and thus without prejudice.
Dkt. 126 at 2.
A dismissal without prejudice for lack of jurisdiction does not entitle parties to bring the same claims in a
federal forum. A contrary rule would impose undue costs on the adverse parties who would be required
to re-litigate the same issues. Accordingly, dismissal with prejudice is proper here. Cf. Phoceene SousMarine, S.A. v. U.S. Phosmarine, Inc., 682 F.2d 802, 806 (9th Cir. 1982) (“It is firmly established that
the courts have inherent power to dismiss an action or enter a default judgment to ensure the orderly
administration of justice and the integrity of their orders.”); O'Brien v. Sinatra, 315 F.2d 637, 642 (9th
Cir. 1963) (“It becomes the obligation of the Court to determine at what point plaintiff would be
foreclosed from further harassing defendants with confused and confounding complaints.”).
VI.

Conclusion

For the foregoing reasons, the Motions are GRANTED. The SAC is DISMISSED WITH PREJUDICE in
its entirety. The Ex Parte Application To Require Suspended Attorney Jeffrey G. Thomas Esq. To
Provide Addresses And Phone Numbers For Each Of His Former Clients is MOOT.
On or before April 20, 2021, Thomas shall serve the IMO on Haiem, True Harmony, and the Delaware
LLC and advise them of his inability to further represent them in this matter. The effect of this Order is
stayed until May 4, 2021 to provide those Plaintiffs with time to retain new counsel. On or before May
11, 2021 after conferring with after meeting and conferring with counsel for Plaintiffs, Defendants shall
lodge a proposed judgment and state whether Plaintiffs have agreed to its form. If the parties have not
agreed to the form of the judgment, within seven days after the proposed judgment is lodged by
Defendants, Plaintiffs shall file any objection(s) in accordance with the Local Rules.
IT IS SO ORDERED.

:
Initials of Preparer

TJ

Page 26 of 26

